Office of Evaluations
Report No. EVAL-10-004


Evaluation of the Timeliness and Factors
Considered in Closing Broadway Bank,
Chicago, Illinois




                                 August 2010
                                      Executive Summary
                                      Evaluation of the Timeliness and Factors
                                      Considered in Closing Broadway Bank,
                                      Chicago, Illinois
                                                                                      Report No. EVAL-10-004
                                                                                                  August 2010

Why We Did This Evaluation
On April 23, 2010, the Illinois Department of Financial and Professional Regulation (IDFPR), Division of
Banking, closed Broadway Bank, Chicago, Illinois, (Broadway) and appointed the FDIC as receiver. On
May 6, 2010, the Ranking Minority Member of the Committee on Oversight and Government Reform
raised concerns that politics may have played a role in the timing of Broadway’s closure and requested
that we expedite our material loss review (MLR) of Broadway so that the report would be completed
before a November 2010 U.S. Senate election. Specifically, he was concerned because a former
Broadway Senior Vice President is currently a U.S. Senate candidate.

We informed the Ranking Member that we would plan and conduct the MLR consistent with our standard
MLR work program and time frames, but to address his concern, we initiated an evaluation to review the
timeliness and factors considered in closing Broadway. Specifically, we determined:

•   The timeline of events leading to the closing of the bank.
•   The factors that the FDIC considered in scheduling the bank closing.
•   Whether the timing of the closing of Broadway was consistent with Prompt Corrective Action
    (PCA) provisions.
•   Whether there was any indication of political or inappropriate influence associated with the closing.


Evaluation Results
The FDIC and IDFPR could have reviewed, processed, and delivered a joint, IDFPR-led April 2009
examination and a January 2010 formal enforcement action to Broadway in a more timely fashion;
however, we did not see any evidence that the examination or enforcement action were delayed for
political reasons or that the timeliness of the examination or enforcement action impacted Broadway’s
closing date. Instead, we concluded that delays in processing the examination and issuing the
enforcement action resulted from the complexity and condition of Broadway, the increased regulatory
workload from the rise in bank failures, and the need for coordination between the FDIC and IDFPR.

Broadway was a state-chartered bank; therefore, the IDFPR was responsible for closing the bank.
The primary factor that prompted the IDFPR’s decision to close Broadway was the bank’s capital
level. Shortly after receiving December 31, 2009 Call Report information showing that Broadway
was Significantly Undercapitalized, IDFPR issued an order requiring Broadway to become Well
Capitalized and correct other conditions or face closure in 60 days. This order effectively began the
bank closing, or resolution process, for the FDIC. Broadway was closed 63 days after IDFPR issued
the state order. We concluded that the FDIC’s resolution of Broadway was timely and ahead of the
Corporation’s preferred 90-day closing time frame.

With respect to PCA provisions, the FDIC notified Broadway that the bank had become Undercapitalized
in July 2009 and required Broadway to submit a capital restoration plan. The FDIC should have notified
Broadway in writing that its capital restoration plan was insufficient, in addition to the verbal notification
provided. It would also have been prudent to notify Broadway management that, as a result of submitting
an unacceptable capital restoration plan, Broadway was subject to the restrictions applicable to
Significantly Undercapitalized institutions. Instead, FDIC officials focused on establishing a definitive
value for certain Broadway investments in order to determine the bank’s capital requirements and



                                  To view the full report, go to www.fdicig.gov
                                     Evaluation of the Timeliness and Factors
   Executive Summary                 Considered in Closing Broadway Bank,
                                     Chicago, Illinois
                                                                                   Report No. EVAL-10-004
                                                                                               August 2010

understand the bank’s true financial condition. The FDIC concluded these investments had declined in
value during the April 2009 examination. However, Broadway was reluctant to realize a loss in its
financial statements and Call Reports. Broadway sold the investments at a significant loss in
December 2009. The FDIC became aware of the impact of the loss on Broadway’s capital position
during a visitation in late January 2010 and the FDIC notified Broadway that it was Significantly
Undercapitalized in February 2010. It does not appear that notifying Broadway earlier that it was subject
to the provisions for Significantly Undercapitalized institutions would have affected Broadway’s closing
date. The FDIC is generally required by the Federal Deposit Insurance Act to appoint a receiver or
conservator for a Critically Undercapitalized institution within 90 days. However, Broadway was not
Critically Undercapitalized prior to its failure.

We also performed evaluation steps to identify evidence of political or inappropriate influence associated
with any examination or enforcement activities or the closing of Broadway. These steps included
reviewing selected officials’ e-mail and calendar entries related to Broadway or meetings with the
Administration or Congressional officials and reviewing telephone records. Nothing came to our
attention to suggest that FDIC officials or the FDIC examination, enforcement action, or closing
processes were subject to any political or inappropriate influence.


Management Response
We provided a draft version of this report for the FDIC’s review. Because the report contained no
recommendations, a written management response was not required. The Division of Supervision and
Consumer Protection elected to provide a written response dated August 4, 2010. The response is
included in its entirety in Appendix II.




                                 To view the full report, go to www.fdicig.gov
                                TABLE OF CONTENTS


EVALUATION OBJECTIVE                                                        1

BACKGROUND                                                                  2

EVALUATION RESULTS                                                          2
  Timeline of Events Leading to Broadway’s Closure                          2
  Factors Considered in Scheduling the Bank Closing Date                    4
  The FDIC’s Implementation of PCA Provisions                               5
  Political or Inappropriate Influence Associated with the Closing          8

CORPORATION COMMENTS AND OIG EVALUATION                                     9

APPENDIXES
  Appendix I: Objective, Scope, and Methodology                             10
  Appendix II: Corporation Comments                                         11
  Appendix III: Broadway Bank -- Timeline of Events                         12

TABLES
  Table 1: Timeliness of Supervisory Processes                              3
  Table 2: Resolution Planning Dates and Actions                            5
  Table 3: Broadway’s Capital Ratios and the FDIC’s PCA Actions             6




                            ACRONYMS IN THE REPORT


ALLL         Allowance for Loan and Lease Losses
CDO          Collateralized Debt Obligation
CMO          Collateralized Mortgage Obligation
DRR          Division of Resolutions and Receiverships
DSC          Division of Supervision and Consumer Protection
FDI Act      Federal Deposit Insurance Act
IDFPR        Illinois Department of Financial and Professional Regulation
LLC          Limited Liability Company
MLR          Material Loss Review
OTTI         other than temporary impairment
PCA          Prompt Corrective Action
Federal Deposit Insurance Corporation
3501 Fairfax Drive, Arlington, VA 22226                                                Office of Inspector General




DATE:                                     August 5, 2010

MEMORANDUM TO:                            Sheila C. Bair
                                          Chairman, FDIC


                                          /Signed/
FROM:                                     Jon T. Rymer
                                          Inspector General

SUBJECT:                                  Evaluation of the Timeliness and Factors Considered in Closing
                                          Broadway Bank, Chicago, Illinois
                                          (Report No. EVAL-10-004)

On April 23, 2010, the Illinois Department of Financial and Professional Regulation (IDFPR),
Division of Banking, closed Broadway Bank, Chicago, Illinois, (Broadway) and appointed the
FDIC as receiver. On May 6, 2010, the Ranking Minority Member of the Committee on
Oversight and Government Reform requested that our office expedite our material loss review
(MLR) of Broadway so that the report would be completed by October 23, 2010. The Ranking
Member’s request was grounded in a concern that politics may have played a role in the timing
of Broadway’s closure, and that the FDIC may have waited longer than necessary to close the
bank, inconsistent with Prompt Corrective Action (PCA) provisions. Specifically, he was
concerned because a former Broadway Senior Vice President is currently a U.S. Senate
candidate.

On May 21, 2010, we informed the Ranking Member that we would plan and conduct the MLR
consistent with our standard MLR work program and time frames and that we would issue our
final MLR report on or before the November 14, 2010 due date. However, to address his
concern, we initiated an evaluation of the factors considered in closing Broadway to ensure that
the closure was timely, consistent with PCA requirements, and free of any political influence.

EVALUATION OBJECTIVE

The overall objective of our evaluation was to review the timeliness and factors considered in
closing Broadway. Specifically, we determined:

     •    The timeline of events leading to the closing of the bank.
     •    The factors that the FDIC considered in scheduling the bank closing.
     •    Whether the timing of the closing of Broadway was consistent with PCA provisions.
     •    Whether there was any indication of political or inappropriate influence associated with
          the closing.

Appendix I presents additional information on our objective, scope, and methodology.


                                                              1
BACKGROUND

Broadway was a state nonmember bank established in 1979. Broadway was wholly-owned by
Broadway Bancorp, Inc., Chicago, Illinois, a one-bank holding company. As of
December 31, 2009, Broadway had approximately $1.2 billion in total assets and $1.1 billion in
total deposits. Broadway operated four branch locations in the greater Chicago area. The
FDIC’s Chicago Field and Regional Office and the IDFPR supervised Broadway and conducted
joint examinations of Broadway during 2008 and 2009, with the IDFPR responsible for
processing the 2009 examination.


EVALUATION RESULTS

Timeline of Events Leading to Broadway’s Closure

The FDIC and IDFPR could have reviewed, processed, and delivered a joint, IDFPR-led
April 2009 examination and a January 2010 formal enforcement action to Broadway in a more
timely fashion; however, we did not see any evidence that the examination or enforcement action
were delayed for political reasons or that the timeliness of the examination or enforcement action
impacted Broadway’s closing date. Instead, we concluded that delays in processing the
examination and issuing the enforcement action resulted from the complexity and condition of
Broadway, the increased regulatory workload from the rise in bank failures, and the need for
coordination between the FDIC and IDFPR.

The FDIC and the IDFPR conducted a joint examination of Broadway beginning in April 2009
and initiated a joint formal enforcement action against Broadway in January 2010. The FDIC
and the IDFPR alternate taking the lead to process examinations and draft enforcement actions
for joint agency review efforts. The IDFPR was the lead agency for the 2009 examination and
2010 enforcement action and, as such, IDFPR was responsible for the initial drafting and quality
control review of the examination report and recommendations as well as the initial draft and
review of the formal enforcement action provisions. The FDIC was responsible for reviewing,
and adjusting where necessary, the language of the IDFPR draft examination report and formal
enforcement action provisions.

Table 1 presents information about the timeliness of the examination report and enforcement
action. Appendix III includes a timeline showing key supervisory events.




                                                2
Table 1: Timeliness of Supervisory Processes
             Supervisory Process                    Broadway         Chicago
                                                     Elapsed          2009                  Comments
                                                      Days           Average
Examination Completion: Elapsed Days                   121             64a          Two examinations had
from Examination Start Date to                                                      longer processing times
Examination Completion.                                                             than Broadway.
Regional Office Report Review:                          110              70a        Five examinations had
Elapsed Days from Examination                                                       regional office review
Completion Date to Examination Report                                               times equal or longer
Delivery to Broadway.                                                               than Broadway.
Enforcement Action Completion:                          160             179b        Six enforcement actions
Elapsed Days from Examination                                                       had longer processing
Completion Date to Consent Order                                                    times than Broadway.
Delivery to Broadway.
Source: DSC and Legal Division interviews and DSC documents.
a
   Average examination completion and regional office review timeframes for the 19 “4-rated” and the 16 “5-
rated” institutions in the Chicago Region during 2009.
b
  Average cease and desist order completion timeframe for the six “4-rated” and the four “5-rated” institutions
in the Chicago Region during 2009.

April 2009 Examination: The FDIC’s Chicago Field Office and the IDFPR initiated a joint
examination of Broadway as of March 31, 2009. The examination began on April 20, 2009 and
was completed 121 days later on August 19, 2009. Subsequently, it took the regulators 110 days
to review, process, and deliver the examination report to Broadway. DSC Chicago officials we
interviewed noted that the examination timeframe was reasonable for a complex bank like
Broadway with a Safety and Soundness Composite Rating of “5” (signifying an extremely high,
immediate or near-term probability of failure) and that problem banks, by nature, take longer to
examine. Further, DSC officials noted that examination and report review timeframes were
modestly impacted by the increased regulatory workload associated with the rise in bank failures
and the need for coordination between the FDIC and IDFPR.

As discussed later, the DSC Chicago staff stated that they did not delay the examination or
examination review process for political reasons. We noted that the examination was started
before the former Broadway Senior Vice President announced his Senate candidacy on
July 26, 2009, and the examination was completed 24 days after the announcement.

January 2010 Enforcement Action: The FDIC and IDFPR issued a joint Consent Order (Order)
to Broadway on January 26, 2010.1 Among other things, the Order required the bank to improve
its capital position, improve bank management, restrict dividends, increase the bank’s allowance
for loan and lease losses (ALLL), and revise the bank’s investment policy. It took the FDIC and
IDFPR 160 days from the completion of the examination to issue the Order to Broadway.

The IDFPR was the lead agency in drafting the Order. FDIC Chicago Legal Division officials
received the first draft of the Order from the IDFPR on October 6, 2009. The officials stated that
provisions related to the investment policy portion of the Order and updated references to
codification changes in financial accounting standards added to the time that it took the state and
1
    Formal enforcement action authorized under Section 8(b) of the Federal Deposit Insurance Act.
                                                          3
the FDIC to develop the Order. The state provided a draft of the Order to Broadway for review
in December 2009 and received comments from Broadway on January 6, 2010. FDIC Legal
Division officials told us that it is common practice to share the draft enforcement action with the
bank. The FDIC and IDFPR presented the Order to Broadway’s Board of Directors on
January 25, 2010 and Broadway’s Board signed the order on the same day. The Order became
effective on January 26, 2010. FDIC Legal Division officials told us there was no effort on the
part of the FDIC or IDFPR to delay completion of the Order for political purposes.

We verified that the FDIC followed its normal process of publicly announcing the Broadway
Order and posting the Order on the FDIC public Web site. The FDIC’s practice is to publicly
announce formal enforcement actions at the end of the month following the effective date of the
enforcement action. Thus, in Broadway’s case, the enforcement action was effective in
January 2010 and publicly released and placed on the FDIC’s Web site on February 26, 2010.
FDIC officials told us that the IDFPR actually made the Order public earlier than usual to avoid
potential criticisms that the IDFPR delayed announcing the Order until after the Illinois primary
election. The primary election for the Illinois U.S. Senate seat was held on February 2, 2010.
FDIC officials indicated that it normally takes IDFPR 7 to 8 days to obtain approval signatures
and to publicly post an Order. In the case of Broadway, the IDFPR collected approval signatures
from the FDIC and IDFPR on January 26, 2010 and publicly posted the Order to its Web site on
the same day.

Factors Considered in Scheduling the Bank Closing Date

Broadway was a state-chartered bank; therefore, the IDFPR was responsible for closing the
bank. The primary factor that prompted the IDFPR’s decision to close Broadway was the
bank’s capital level. As discussed later, Broadway suffered significant losses when it sold
certain devalued investments in December 2009. Broadway reflected these losses, totaling
$18 million, in its December 31, 2009 Call Report, which the FDIC and IDFPR obtained in
late January 2010. The losses decreased Broadway’s tier 1 leverage capital ratio to
2.86 percent, making Broadway Significantly Undercapitalized for PCA purposes.

Several DSC officials told us that once a bank’s tier 1 leverage or tier 1 risk-based capital
ratios drop below 3 percent, the IDFPR no longer considers the bank to be a going concern.
An IDFPR official confirmed that the agency closely evaluates banks with a tier 1 leverage
or tier 1 risk-based capital ratio lower than 3 percent to ensure the bank’s capital level is
sufficient for the institution’s risk profile. On February 3, 2010, the IDFPR discussed with
Broadway its ability to continue as a going concern and on February 19, 2010, the IDFPR
issued a Section 51 Order.2 The Section 51 Order required Broadway to become Well
Capitalized and correct other unsafe and unsound conditions no later than 60 days from the date
of the Order or face closure by the IDFPR and liquidation through receivership.

Concurrent with the Section 51 Order, the FDIC’s Division of Resolutions and
Receiverships (DRR) began preparing to close Broadway, known as the resolution process.
Normally, DRR prefers to have 90 days to plan for a resolution. In the case of Broadway,
DRR only had about 60 days consistent with the Section 51 Order. Table 2 presents

2
  Pursuant to Section 51 of the Illinois Banking Act, 205 ILCS 5/51. Section 51 provides that, among other things,
if a state bank’s capital is impaired or it is otherwise in unsound condition, the IDFPR may give the bank at least 60,
but no more than 180 days, to correct the situation or face liquidation through receivership.


                                                           4
selected dates from the resolution planning process for Broadway.

Table 2: Resolution Planning Dates and Actions
Date                   Action
February 12, 2010      DSC and IDFPR meet with Broadway Board of Directors to begin the
                       resolution process.
February 22, 2010      DRR orders a deposit download from the bank to plan for the bank closing.
March 2, 2010          FDIC opens the Interlinks secured due diligence Internet site to potential
                       bidders.
March 4, 2010          DRR deploys a resolution planning official and an Information
                       Package/Asset Valuation Review team on site at Broadway to value
                       Broadway’s assets.
April 13, 2010         FDIC Board approves Broadway failing bank case.
April 19, 2010         Final date for interested parties to submit a bid for Broadway.
April 23, 2010         Broadway is closed.
Source: DRR interviews and DRR resolution documents.

We concluded that DRR’s resolution of Broadway was timely and ahead of DRR’s preferred
90-day closing time frame.

The FDIC’s Implementation of PCA Provisions

With respect to PCA provisions, the FDIC notified Broadway that the bank had become
Undercapitalized in July 2009 and required Broadway to submit a capital restoration plan. The
FDIC should have notified Broadway in writing that its capital restoration plan was insufficient,
in addition to the verbal notification provided. It would also have been prudent to notify
Broadway management that, as a result of submitting an unacceptable capital restoration plan,
Broadway was subject to the restrictions applicable to Significantly Undercapitalized
institutions. Instead, FDIC officials focused on establishing a definitive value for certain
Broadway investments in order to determine the bank’s capital requirements and understand the
bank’s true financial condition. Broadway sold the investments at a significant loss in
December 2009. The FDIC became aware of the impact of the loss on Broadway’s capital
position during a visitation in late January 2010, and the FDIC notified Broadway that it was
Significantly Undercapitalized in February 2010. It does not appear that notifying Broadway
earlier that it was subject to the provisions for Significantly Undercapitalized institutions would
have affected Broadway’s closing date. The FDIC is generally required by the Federal Deposit
Insurance Act (FDI Act) to appoint a receiver or conservator for a Critically Undercapitalized
institution within 90 days. However, Broadway was not Critically Undercapitalized prior to its
failure.

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of mandatory and
discretionary supervisory actions pertaining to all insured depository institutions. The section
requires that regulators take progressively more severe actions, known as “prompt corrective
actions,” as an institution’s capital level deteriorates. The purpose of section 38 is to resolve
problems of insured depository institutions at the least possible long-term cost to the Deposit
Insurance Fund. Section 38 requires the appropriate federal regulatory agency to take one of the
following actions no later than 90 days after an institution becomes Critically Undercapitalized:

   •   Appoint a receiver or conservator.

                                                 5
    •    Take other action (with FDIC concurrence) that the agency determines will better achieve
         the purpose of PCA.

Table 3 provides Broadway’s capital ratios and corresponding FDIC prompt corrective actions.

Table 3: Broadway’s Capital Ratios and the FDIC’s PCA Actions
                      Tier 1 Leverage         Tier 1 Risk          Total Risk          PCA Capital
 Period Ended             Capital            Based Capital       Based Capital      Category/Actions
 PCA Threshold          5% or more            6% or more          10% or more       Well Capitalized
 Dec 2005                 12.20%                13.07%              14.23%          Well Capitalized
 Dec 2006                 12.50%                13.56%              14.70%          Well Capitalized
 Dec 2007                 12.94%                13.87%              15.04%          Well Capitalized
 Dec 2008                  8.70%                9.87%               11.13%          Well Capitalized
 PCA Threshold         Less than 4%*         Less than 4%        Less than 8%       Undercapitalized
 Based on the                                                                       Undercapitalized
 April 2009                                                                         PCA letter sent
 Examination                5.94%                5.78%                7.06%         July 20, 2009.
                                                                                    Significantly
 PCA Threshold          Less than 3%         Less than 3%         Less than 6%      Undercapitalized
                                                                                    Significantly
                                                                                    Undercapitalized
                                                                                    PCA letter sent
 Dec 2009                  2.86%               3.27%                4.53%           February 4, 2010.
                      The ratio of tangible equity to total assets is 2 percent     Critically
 PCA Threshold               or less regardless of other capital ratios.            Undercapitalized
Source: DSC examination reports and Broadway Call Reports.
* Tier 1 Leverage Capital Ratio less than 3 percent if bank is rated composite 1.

The FDIC first notified Broadway that it was Undercapitalized on July 20, 2009 based on the
FDIC’s examination of Broadway that started on April 20, 2009. During that examination, the
FDIC reviewed the value assigned to two collateralized debt obligations (CDOs) and four
collateralized mortgage obligations (CMOs) held by Broadway and determined they were
overvalued. The FDIC concluded that a portion of the CDO and CMO value was doubtful and
therefore included a corresponding $11.7 million reduction to Broadway’s tier 1 capital level.
This reduction in capital resulted in Broadway being Undercapitalized for PCA purposes. The
July 20, 2009 PCA letter communicated to Broadway the mandatory restrictions of Section 38
related to restricting asset growth; acquisitions, new activities and branches; and payment of
dividends or any other capital distribution or management fees. The letter also restricted
Broadway’s use of brokered deposits.

Broadway disagreed with the FDIC’s valuation of CMOs and CDOs and continued to report a
more favorable valuation in its June 30, 2009 and September 30, 2009 Call Reports. Essentially,
Broadway’s capital level was dependent upon the methodology used to value the CDOs and
CMOs as there was no established market price. Accordingly, while the FDIC had notified
Broadway that it was Undercapitalized, Broadway’s Call Reports continued to show the bank as
Adequately Capitalized.

The July 20, 2009 PCA letter required Broadway to file a written capital restoration plan by
August 16, 2009. Broadway submitted a proposal on August 14, 2009 for the FDIC’s

                                                          6
consideration that involved transferring bank-owned loans and potentially other securities to a
newly created Limited Liability Company (LLC) subsidiary in exchange for the common stock
of the subsidiary. The LLC would, in turn, market the loans, issue preferred stock to third-party
investors, and transfer cash from the sale of the loans to Broadway. This transaction would
create a minority interest in the subsidiary, which, when consolidated, would be included in
Broadway’s tier 1 capital. The FDIC rejected the proposal because the FDIC did not believe the
transaction provided meaningful capital support to Broadway.3

12 CFR Part 325.104 requires the FDIC to provide written notice within 60 days of receiving a
capital restoration plan as to whether the plan has been approved. If the FDIC does not approve
the capital restoration plan, the bank shall submit a revised capital restoration plan within the
time specified by the FDIC. Upon receiving notice that its capital restoration plan has not been
approved, any undercapitalized bank shall be subject to all of the provisions of section 38 of the
FDI Act applicable to Significantly Undercapitalized institutions.

The DSC case manager stated that he orally communicated to Broadway management on several
occasions that the capital restoration plan was unacceptable. However, DSC did not
communicate its decision to Broadway in writing. The case manager drafted a letter, dated
November 18, 2009, informing Broadway that because of its failure to submit an acceptable
capital restoration plan, the bank was subject to the restrictions applicable to Significantly
Undercapitalized institutions. The letter explained the additional restrictions related to executive
compensation, affiliate transactions, interest rates paid on deposits, and the requirement to
recapitalize or sell Broadway. The letter also discussed Call Reporting inaccuracies and the
FDIC’s authority to assess civil money penalties for the bank’s failure to provide an acceptable
capital restoration plan and to file accurate Call Reports.

According to DSC regional management, the draft letter was never sent to Broadway for a
number of reasons. First, the examination report that initially challenged the value of the CDOs
and CMOs and placed Broadway into an Undercapitalized position was still in draft and the
region was working with the FDIC Capital Markets group in Washington to review the
assumptions underlying the value calculations but had not come up with an agreed-upon value.
Without additional clarity with respect to the value of the CDOs and CMOs, it was difficult to
determine appropriate capital requirements. Additionally, the region was in the process of
drafting a formal enforcement action that would broadly address all of the issues at Broadway,
including capital requirements.

A Chicago regional official noted that imposing the Significantly Undercapitalized restrictions
prior to the results of the year-end Call Report would not have accelerated the bank’s resolution
and that DSC was already monitoring Broadway as if it were Significantly Undercapitalized.
For example, the official stated that DSC had already placed limits on Broadway’s use of
brokered deposits, the FDIC was monitoring Broadway’s executive compensation practice, and
Broadway had no transactions with affiliates. Still, the FDIC should have notified Broadway

3
  DSC issued Regional Director Memorandum 6000, dated February 26, 2010, Minority Interests in Tier 1 Capital,
that provided guidance to examination staff about including minority interests in tier 1 capital, the concept of
meaningful capital support, and the expectation that voting common equity should be the dominant form of tier 1
capital. In the case of the Broadway proposal, DSC concluded that Broadway would be taking on more risk with a
lower rate of return than the third-party investors.
                                                        7
management in writing that its capital restoration plan was insufficient or extended the period of
time to submit a new plan. It would also have been prudent for the FDIC to notify Broadway
management that the bank was subject to the restrictions applicable to Significantly
Undercapitalized institutions because the bank had not submitted an acceptable capital
restoration plan.4 However, it does not appear that notifying Broadway earlier that it was subject
to the provisions for Significantly Undercapitalized institutions would have affected its closing
date.

On December 28, 2009, Broadway sold the two CDOs for $260,000 and realized a loss of
$18 million. According to CFR Part 325.102, Notice of Capital Category, a bank should provide
written notification to the FDIC Regional Director that an adjustment to the bank’s capital
category may have occurred no later than 15 calendar days following the date of a material event
that would cause the bank to be placed in a lower capital category. We confirmed with DSC that
Broadway notified DSC of the sale during a January 25, 2010 meeting to discuss the Order.

During the January 26, 2010, visitation, the FDIC obtained Broadway’s December 31, 2009 Call
Report information, which reflected the loss on the sale and which included capital ratios
showing that Broadway was Significantly Undercapitalized. On February 4, 2010, the FDIC sent
a letter to Broadway notifying the Broadway Board of Directors that the bank was Significantly
Undercapitalized. In addition to the restrictions on growth, acquisitions, dividends, and capital
distributions, the FDIC imposed restrictions on affiliate transactions and interest rates on
deposits, and required either the recapitalization or sale of the bank.5 The FDIC once again
required Broadway to submit a written capital restoration plan. Broadway submitted a capital
restoration plan dated March 17, 2010. The FDIC notified Broadway that the plan was
unacceptable in a letter dated March 31, 2010.

The FDIC issued a Supervisory PCA Directive to Broadway on April 19, 2010, due to the need
for an immediate capital infusion and the lack of a viable capital restoration plan. The directive
required Broadway to sell voting shares or obligations to become adequately capitalized or
accept an offer to be acquired by a depository institution holding company or to combine with
another insured depository institution. The directive also reiterated the restrictions on the use of
brokered deposits and other PCA-related restrictions. Broadway failed on April 23, 2010, before
submitting an acceptable capital restoration plan and before filing its March 31, 2010 Call
Report. At no point was Broadway considered to be Critically Undercapitalized for PCA
purposes prior to its failure.

Political or Inappropriate Influence Associated with the Closing

We performed evaluation steps to identify evidence of political or inappropriate influence
associated with any examination or enforcement activities or the closing of Broadway. Nothing
came to our attention to suggest that FDIC officials or the closing process were subject to
political or inappropriate influence.



4
 12 CFR Part 325.104 (a) and (e).
5
 The above-mentioned January 26, 2010, Order also included discretionary PCA provisions such as reducing
substandard assets and conducting a management study to include recruiting qualified management.
                                                      8
To meet this objective, we interviewed selected DSC officials involved in supervising Broadway,
Legal Division officials, an IDFPR representative, and DRR officials involved in planning the
resolution. We also reviewed e-mail correspondence related to Broadway for selected officials.
In addition, we interviewed selected senior level officials to ensure they were not subject to
political influence and reviewed those individuals’ e-mails and calendar entries related to
Broadway or meetings with Administration or Congressional officials, and telephone calls to the
White House. Nothing came to our attention to suggest that FDIC officials or the FDIC
supervisory, enforcement action, or closing processes were subject to any political or
inappropriate influence.


CORPORATION COMMENTS AND OIG EVALUATION

DSC management provided a written response, dated August 3, 2010, to a draft of this report.
The response is presented in its entirety in Appendix III. DSC acknowledged that the time
period required to review, process, and deliver the Report of Examination and draft the
enforcement action was extended but was considered within reason because Broadway had
become a complex, problem institution. DSC also noted that while written notification of the
insufficiency of Broadway’s capital restoration plan would have been appropriate, the
circumstances surrounding the value of Broadway’s investments made this case somewhat
unique.

DRR elected not to provide a written response. Because our report contained no
recommendations a management response was not required.




                                               9
                                                                                                Appendix I


                         OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our evaluation was to review the timeliness and factors considered in closing
Broadway. Specifically, we determined:

    •   The timeline of events leading to the closing of the bank.
    •   The factors that the FDIC considered in scheduling the bank closing.
    •   Whether the timing of the closing of Broadway was consistent with PCA provisions.
    •   Whether there was any indication of political or inappropriate influence associated with
        the closing.

We interviewed DSC staff in the Chicago Regional and Chicago Field Office, and Legal
Division staff in the Chicago Regional Office regarding the supervision and Consent Order that
was placed on Broadway. We also interviewed an IDFPR representative. To understand factors
associated with and the timing of the resolution, we interviewed DRR headquarters and field
officials responsible for planning the closing of Broadway. Finally, we interviewed selected
FDIC senior executives, including the Chairman, Vice Chairman, General Counsel, and Deputy
Director for External Affairs to ensure they were not subject to political influence. We asked all
interviewees whether they were aware of any attempts to delay federal supervisory action or
resolution decisions related to Broadway Bank. We did not perform any evaluation work to
determine whether IDFPR was subject to political influence, and we have no reason to believe
that such influence occurred.

To answer our objectives, we reviewed:

    •    DSC’s supervisory history, examination reports, field and regional office file
         correspondence, and e-mail correspondence.
    •    The January 26, 2010 Consent Order and related documents.
    •    FDIC PCA letters, the April 19, 2010 Supervisory PCA Directive, and other related
         documents.
    •    The FDIC’s failing bank case, strategic resolution plan, and other resolution documents.

In addition to asking interviewees whether they were subject to political or inappropriate
influence, we reviewed FDIC senior executives’ e-mail and calendar entries for information
related to Broadway or meetings with Administration or Congressional officials. We also
reviewed phone records for calls to the White House and followed up on selected calls with
FDIC senior level officials.6

We performed our evaluation during May and June 2010 in accordance with the Quality
Standards for Inspections.




6
 We were only able to identify telephone calls from the FDIC network to the White House. FDIC systems could
not isolate telephone calls originating from the White House to the FDIC network.
                                                     10
                                                                                     Appendix II
                                 CORPORATION COMMENTS



Federal Deposit Insurance Corporation
   550 17th Street NW, Washington, D.C. 20429-9990              Division of Supervision and Consumer Protection

                                                                        August 3, 2010
TO:               Jon T. Rymer
                  Inspector General

                  /Signed/
FROM:             Sandra L. Thompson
                  Director

SUBJECT:          FDIC Response to the Draft Evaluation Report Entitled Evaluation of the
                  Timeliness and Factors Considered in Closing Broadway Bank, Chicago, Illinois
                  (Assignment No. 2010-057)

         Thank you for the opportunity to review and comment on your evaluation report of the
circumstances related to the closure of Broadway Bank entitled Evaluation of the Timeliness and
Factors Considered in Closing Broadway Bank, Chicago, Illinois (Assignment No. 2010-057).
We are pleased your report states you did not see any evidence that the timing of the examination
or completion of the enforcement action was delayed or impacted Broadway Bank’s closing date
for reasons of political influence. We agree with your finding that a lengthy time period was
required to process the Report of Examination and the enforcement action; however, the reasons
for the timeliness issues were not politically motivated.

        The Report notes the FDIC and Illinois Department of Financial and Professional
Regulation could have reviewed, processed, and presented the April 2009 Report of Examination
and January 2010 formal enforcement action in a more timely fashion. The FDIC is sensitive to
the timely review and processing of Reports of Examination and effective coordination with our
State bank regulatory counterparts. The time period required to review, process, and deliver the
Report of Examination and draft the enforcement action was extended, but considered within
reason because Broadway had become a complex, problem institution.

         The report also states FDIC should have provided written notification to Broadway Bank
in November 2009 of its failure to submit an acceptable capital restoration plan under the
requirements of 12 CFR Part 325.104. The FDIC continued to communicate verbally with
Broadway Bank. Written notification was sent once the value for complex investments in
Broadway Bank’s portfolio had been determined. The extenuating circumstances surrounding
the value of Broadway Bank’s investments, which had experienced significant market
devaluation, and the effect on proposed provisions in the capital restoration plan make this case
somewhat unique. Overall, we agree written notification of the insufficiency of a capital
restoration plan is appropriate.

        Thank you again for the opportunity to review and comment on your Report.




                                                     11
                                                                                                                                         Appendix III
                                            Broadway Bank -- Timeline of Events


                                                                                                  Around 1/29/10         2/03/10 State no longer
                                                                                                  FDIC obtains           views bank as a going
                                                                                                  Broadway's             concern.
                     7/20/09                                                                      12/31/09 Call
                     FDIC sends PCA                                                               Report information     2/04/10 FDIC sends
                     letter to Broadway                                                           showing bank           Significantly
                                                                     10/06/09 FDIC                                       Undercapitalized PCA
                     based on                                                                     Significantly
                                                                     Legal receives                                      notice to Broadway.
                     examination.                                                                 Undercapitalized .
                                                                     draft Consent
                     Broadway is
                                                                     Order from
                     Undercapitalized .
                                                                     IDFPR.
                                                                                            1/25/10                       2/19/10        4/19/10
                                                                                            Consent     1/26/10           State issues   FDIC issues
 4/20/09                              8/19/09        9/14/09                                                              Section 51     PCA Directive.
                                                                                            Order       Joint
 Examination                          Examination    Regional                                                             Order,
                                                                                            provided    visitation to
 started.                             completed--    office begins                                                        provides bank
                                                                                12/07/09    to bank.    assess                              4/23/10
                                      rating         review of                                                            60 days to
                                                                                Exam        Effective   Broadway                            Broadway
                                      5/555554.      examination                                                          raise capital.
                                                                                mailed to   1/26/10.    financial                           Closed.
                                                     report.                                            condition.
                                                                                bank.




Apr      May       Jun         Jul        Aug       Sep        Oct            Nov           Dec           Jan           Feb        Mar          Apr


 Examination -- 121 days to complete.                Regional Office Review--                                                 DRR Resolution
 Chicago 2009 Average -- 64 days.                    110 days from examination                                                Planning --
                                                     completion.                                                              63 days.
                                                     Chicago 2009 Average -- 70 days.                                         Preferred time-
                                                                                                                              frame -- 90 days.
                                                              Consent Order Preparation--
                                                              Effective 160 days after the exam.
                                                              Chicago 2009 Average -- 179 days




                                                                      12
